<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA: 2011 ANNUAL REPORT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA: 2011 ANNUAL REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2011

                               __________

                           Serial No. 112-85

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
71-038                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2344534c63405650574b464f530d404c4e0d">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Christopher Smith, chairman, Congressional-
  Executive Commission on China..................................     5
The Honorable Tim Walz, ranking member, Congressional-Executive 
  Commission on China............................................     7
Ms. Chai Ling, founder, All Girls Allowed (student leader, 1989 
  Tiananmen Square protests).....................................    13
Mr. Bob Fu, president, China Aid.................................    21
Mr. John Kamm, chairman, The Dui Hua Foundation..................    32
Mr. Bhuchung K. Tsering, vice president for special programs, 
  International Campaign for Tibet...............................    40
Sophie Richardson, Ph.D., China director, Human Rights Watch.....    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tim Walz: Prepared statement.......................    10
Ms. Chai Ling: Prepared statement................................    15
Mr. Bob Fu: Prepared statement...................................    23
Mr. John Kamm: Prepared statement................................    34
Mr. Bhuchung K. Tsering: Prepared statement......................    42
Sophie Richardson, Ph.D.: Prepared statement.....................    47

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    73
Mr. Bhuchung K. Tsering: Material submitted for the record.......    75


    CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA: 2011 ANNUAL REPORT

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
After recognizing myself and my good friend the ranking member 
for 7 minutes each for our opening statements, I will recognize 
the chairman and the ranking members of our Subcommittee on 
Asia and the Pacific for 3 minutes each for their statements.
    We will then hear from our witnesses. Thank you, gentlemen, 
for being with us. I would ask that you summarize your prepared 
statements in 5 minutes each before we move to the questions 
and answers with members under the 5-minute rule. And, without 
objection, the witnesses' prepared statements will be made a 
part of the record.
    And members may have 5 days to insert statements and 
questions for the record subject to the length limitations and 
the rules. And, without objection, the written statement of 
Under Secretary of State Marie Otero will be made a part of the 
record.
    The Congressional-Executive Commission on China has 
recently issued its tenth annual report on China's human rights 
and the rule of law developments. The report also marks a 
decade since China acceded to membership in the World Trade 
Organization, WTO, after being granted Permanent Normal Trade 
Relations, PNTR, with the United States the previous year.
    I opposed PNTR for China, given its abysmal human rights 
record, its unfair trade practices, and its disdain for the 
rule of law. Over a decade later, we can see that economic 
engagement with and trade liberalization for China did not 
produce political liberalization and, thus, granting PNTR in my 
view was a mistake.
    Documented in the Commission's report is a clear picture of 
a China where human rights lawyers disappear, black jails 
illegally imprison those who seek to voice dissent, Falun Gong 
practitioners are mercilessly persecuted, and the internet is 
censored by the thought police. In just the past 12 months, 
Beijing has sought to disrupt the Nobel Peace Prize ceremony 
for Chinese dissident Liu Xiaobo; kept news of the Jasmine 
Revolution in the Middle East from the Chinese people; and 
disrupted a Christian service on Easter morning, the holiest 
day of the Christian calendar.
    The release of Nobel Peace Prize laureate Aung San Suu Kyi 
by the Burmese junta in late 2010 left Mr. Liu the sole 
imprisoned Nobel Peace Prize winner worldwide. He remains held 
in a Chinese jail offering silent testimony to Beijing's 
repression. It appears that Beijing is adhering to the old 
Chinese adage of ``kill the chicken to scare the monkey'' by 
making Mr. Liu an example of what dire consequences await a 
person in China who is bold enough to speak out for democratic 
reform.
    The report also notes how the rights of ethnic groups in 
China are constantly trampled. Whether it is a Mongolian herder 
on the grasslands, a Tibetan monk praying in his monastery, or 
a Uyghur Muslim seeking fair and equal employment, all face the 
harsh backlash of Beijing's oppression.
    In recent months, the desperation has intensified so 
greatly that several monks of Tibet and nuns have set 
themselves on fire to protest China's rule in Tibet. Beijing's 
ultimate goal continues to be to displace Tibetans, Uyghurs, 
and Mongolians in their traditional homelands with Han Chinese.
    While Mao once claimed that ``women hold up half the sky,'' 
the Commission report notes that ``sexual harassment reportedly 
remains prevalent in China.'' Trafficking for sexual 
exploitation, forced labor, forced marriage, remain, according 
to the report, a major impediment to the achievement of full 
equality for women. North Korean refugee women are particularly 
vulnerable to exploitation by China's sex trade.
    It is imperative, given the exploitation of North Korean 
refugee women and children, that Beijing provide access to the 
U.N. High Commissioner for Refugees, to interview refugees in 
northeast China. And China must stop the forced repatriation of 
North Korean refugees at once and comply with its international 
obligations.
    The Commission's report also chronicles how the so-called 
``workers' paradise'' of the People's Republic of China has no 
respect for its people and a complete disdain for workers' 
rights. Factory owners and local officials conspire to poison 
the environment of the people who live in the vicinity and to 
exploit the workers who labor in deprivation and filth, worthy 
of a Charles Dickens novel. Forced abortion mandated by a 
coercive one-child policy has led to a widening gender 
imbalance.
    Nor is China in any way closer to becoming a fair trading 
partner, as the countless unemployed Americans can readily 
affirm. The report points to ``a lack of respect for the rule 
of law extended into the international arena, where China 
pursued domestic subsidies and industrial policies inconsistent 
with China's commitments as a member of the World Trade 
Organization.'' How can a ruling clique which causes human 
rights lawyers to disappear, which persecutes and tortures 
Falun Gong practitioners, which drives Tibetan monks to such 
despair that they set themselves on fire, and which hunts down 
North Korean refugees on its northeast frontier ever expect to 
be regarded as anything but a barbaric regime, certainly 
unworthy of the name responsible stakeholder?
    I welcome recommendations from our distinguished witnesses 
on follow-up actions for our Foreign Affairs Committee to take 
as a result of the conclusions that you have reached in your 
Commission's report. Thank you, gentlemen, for being with us.
    I am now pleased to turn to my friend the ranking member 
for his opening remarks.
    Mr. Berman. Well, thank you very much, Madam Chairman, for 
calling this hearing. As you pointed out, the Congressional-
Executive Commission on China was established in the year 2000 
as part of the legislation that granted permanent normal trade 
relations to China. And it now plays a key role in tracking 
human rights conditions and the development of the rule of law 
in China.
    The Commission and the report that it issues every year 
serves as a valuable resource for not only Congress but for a 
much broader audience that wants to understand what is 
happening in China on these critical issues.
    Under the leadership of its two co-chairs, the 
distinguished and irrepressible representative Chris Smith and 
also distinguished and irrepressible Senator Sherrod Brown, the 
Commission's recent report makes clear those human rights 
conditions in China remain a significant concern.
    While China's remarkable economic progress over the past 30 
years has lifted millions of its citizens out of poverty, the 
unfortunate fact remains that these economic achievements have 
not led to commensurate gains in political freedoms and human 
rights for the Chinese people.
    The Commission's report goes into great detail on a broad 
range of issues that are of vital importance, including freedom 
of expression, religious freedom, worker rights, rule of law, 
ethnic minorities, and democratic governance. The report notes 
that China's record on human rights and rule of law has not 
improved but, instead, has worsened in some areas.
    Even more troubling, the report states that the Chinese 
Government has grown more assertive in the violation of human 
rights, disregarding the laws and international standards that 
it claims to uphold while tightening its grip on Chinese 
society. Specifically, the Commission's report found that 
Chinese authorities instituted a major crackdown on internet 
and press freedom, starting last February, after the appearance 
of online calls for Jasmine protests in China following the 
outbreak of demonstrations in the Middle East and North Africa.
    In Tibet, Xinjiang, and other minority areas, China's 
Government continued to promote policies threatening the 
viability of the language and culture of these groups. The 
report also notes that China implements industrial policies, 
which are inconsistent with its commitments as a member of the 
World Trade Organization and are incompatible with the rule of 
law.
    Promoting human rights and political freedom is a key tenet 
of U.S. foreign policy. And these universal values must remain 
a central focus in our relationship with Beijing.
    Some argue that emphasizing human rights conflicts with 
other priorities in our bilateral relationships: The currency 
issue, Iran, North Korea, trade, and many other issues. But as 
Americans, we must not simply check our morals at the door.
    Regrettably, China's unelected leaders failed to recognize 
that greater human rights protections are also in China's self-
interest. Repression, as we have most recently seen in the 
Middle East, ultimately causes people to rebel against their 
oppressors. If there is one thing Chinese leaders care about 
most, it is domestic tranquility. Their current policies can 
only result in that which they fear the most: Domestic turmoil. 
Ultimately China's international image and economic growth are 
dependent on developing a society based on the respect for the 
rule of law and the rights of the Chinese people.
    I look forward to the testimony of our colleagues, 
Congressmen Smith and Walz, and the panel that will follow them 
and in discussing ways with our witnesses that the United 
States can help improve the deplorable human rights situation 
in China.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairwoman and 
Mr. Berman. I appreciate the leadership, both of you, 
demonstrated on this very important issue.
    Let's just note right off the bat, today is not in any way 
a condemnation of the people of China. We, in fact, are today 
expressing our solidarity with the people of China who long for 
democracy and liberty, the people of China who want the same 
kind of rights that every person in this world is entitled to 
and that we as Americans believe is a gift from God and not 
something that is a gift from the state.
    What we have in China is the world's worst human rights 
abuser. I don't know any other regime that will take political 
prisoners, throw them into jail or take religious prisoners and 
throw them into jail, and execute them and sell their body 
parts. I don't know any other regime that has made it as 
important to control the religious beliefs of their people than 
the Chinese regime of today. This does not have to be.
    We tried the strategy of, well, let's make them wealthy 
and, thus, they will become less aggressive and more liberal. 
That has not worked. We should try to determine strategy that 
will help the people of China and secure the peace of the 
world.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Rohrabacher. Madam Chairman.
    Chairman Ros-Lehtinen. Mr. Sires of New Jersey is 
recognized.
    Mr. Sires. I just wanted to compliment you on holding this 
hearing. And I really want to compliment my colleagues for 
coming before this committee, especially my colleague from New 
Jersey, who has made this a lifelong battle. So I compliment 
you both and thank you for being before this committee.
    Chairman Ros-Lehtinen. Thank you, Albio.
    Mr. Turner of New York is recognized.
    Mr. Turner. I have nothing to say, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, sir.
    Judge Poe?
    Mr. Poe. Thank you, Madam Chair.
    Some people might think because China's economy has grown 
and all this talk about it being the next super power that the 
internal operation of China has changed. It has not.
    I am glad that we had this hearing today. China needs to be 
recognized for what they are: A socialist, Communist system. 
And it continues to be one. And it does not exercise the 
ability to allow freedom of religion. The only religion in 
China is the worship of the political leader in the political 
system.
    Organized religion is a threat. There are over 500 cases of 
political or religious imprisonment in China. The Chinese 
Government has cracked down on churches, encouraging a 
blacklist of church leaders that has grown up. One Chinese 
newspaper says that Protestants are even encouraged, forced to 
worship at government-sanctioned churches.
    Freedom of religion is not granted by man. It is granted by 
God, no matter what one's religious freedom. I hope we 
recognize that. And I agree with my friend Mr. Rohrabacher this 
is about the Chinese Government. It is not about the people of 
China, whom we stand up and hoping they may also exercise 
universal religious freedom that is given by the Creator, not 
by government.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Judge Poe.
    And now we are so pleased to welcome our first panel of 
witnesses from the Congressional-Executive Commission on China 
to discuss their 2011 annual report. First, we will hear from 
Chris Smith, the chairman of the Congressional-Executive 
Commission on China. He has been a member since 2007. He has 
been a Member of Congress since '81. Welcome, Chris, and 
another good friend, Tim Walz, the Ranking House Commissioner 
since 2007, the year he was elected to Congress. So thank you, 
Tim, for being with us also.
    And I remind you to keep your oral testimony to no more 
than 5 minutes. And, without objection, your written testimony 
will be inserted in the record.
    Mr. Smith. Thank you, Chair.
    Chairman Ros-Lehtinen. So welcome.

    STATEMENT OF THE HONORABLE CHRISTOPHER SMITH, CHAIRMAN, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Smith. And I want to join my friend, Congressman Walz, 
the ranking member. And on behalf of Sherrod Brown, the co-
chair, we present this testimony. And thank you for convening 
this hearing.
    This year's tenth annual human rights report by the 
Congressional-Executive Commission continues to be the most 
comprehensive heavily documented review and analysis of China's 
worsening human rights record.
    The report's 225 pages of analysis and recommendations 
followed by another 119 pages of meticulously researched 
endnotes paints an extremely dire, frightening picture of 
escalating human rights crimes, including torture, forced 
abortion, religious persecution, and ethnic discrimination 
committed with impunity by government personnel at all levels 
and an ubiquitous secret police.
    The report declares that ``in areas of human rights and 
rule of law this year, China's leaders have grown more 
assertive in their violations of rights, disregarding the very 
laws and international standards that they claim to uphold, 
thereby tightening their grip on Chinese society.''
    In a shift, the report notes that ``China's leaders no 
longer respond to criticism by simply denying that rights have 
been abused. Rather, they increasingly use the language of 
international laws to defend their actions.''
    Even in the highly visible, patently unjust incarceration 
of 2010 Nobel Peace Prize Winner Liu Xiaobo, the report points 
out that the ``Chinese authorities sought to defend their 
handling of the case as consistent with international law.'' Of 
course, the big lie in Beijing completely collapsed under 
scrutiny.
    The U.N. Working Group on Arbitrary Detention concluded in 
May of this year that it was the Government of China that had 
violated international law in denying Liu's right to free 
speech and his right to a fair trial. ``Official rhetoric 
notwithstanding,'' the report notes, ``China's human rights and 
rule of law have not improved and appear to be worsening in 
some areas.''
    Some of the profoundly troubling conclusions in the 
report--and I go into this much more in the longer version of 
my comments--``Beginning in February 2011, the Chinese police 
took the unusual step of `disappearing' numerous lawyers in one 
of the harshest crackdowns in recent memory.''
    On coercive population control, the report found that 
``this year in official speeches and government reports, 
authorities used the phrase 'spare no efforts' to signify 
intensified enforcement.'' Of course, they continue to monitor 
women's menstrual cycles and unauthorized children. In other 
words, the government says if a child is authorized or not. And 
if that child is not authorized, that child is forcibly aborted 
and that woman is so cruelly mistreated. And the report goes 
into great expansion on that cruelty toward women and children.
    Of course, the consequence, the missing children, the 
missing girls, I should say, according to the Commission is the 
highest sex ratio disparity in the entire world.
    It also talks about enforcement campaigns and the use in at 
least one area of man-on-man military tactics. They are using 
all-out efforts to mobilize the ending of the lives of these 
children and the cruelty meted out to those women.
    In my personal view, having combated this abuse since the 
early '80s, the Chinese population control program has and 
remains a weapon of mass destruction deployed by the government 
against its own women and children that is without parallel or 
precedent in all of history.
    The report also notes that the government continues to 
carry out a campaign against the Falun Gong and then against 
all of the various religious denominations: Catholic, Uyghurs, 
the Tibetan Buddhists. And it goes into great detail about how 
individuals who are not part of the officially licensed 
churches are repressed, incarcerated.
    One of the people spoken about in the report is Bishop Su 
of Baoding. I met with Bishop Su in the early 1990s. He was out 
of prison after spending decades of his life in prison. He was 
the kindest, most gentle man you ever want to meet. And he 
spoke about loving his captors and doing good to those who 
persecuted, in 1996 rearrested. We haven't seen from him since.
    The report goes into great detail on workers' rights, which 
are nonexistent, but notes that young people are increasingly 
dissatisfied with the status quo. Labor organizers continue to 
be arrested, detained, and abused. Yet, they keep coming back 
the way Lech Walesa did so greatly in Poland and others 
throughout the world. These men and women are amazing. And, 
yet, they find themselves in prison for trying to organize and 
get some kind of workers' rights.
    Internet regulation and censorship have gotten worse. As 
Mr. Berman pointed out, there was a state Internet Information 
Office established in May 2011. The report concludes, ``the 
total number of Web sites in China decreased dramatically as a 
result of'' this. ``Authorities continued to have no tolerance 
for democracy advocates. Public security officers continued'' 
their detention through what they call reform ``through 
labor.''
    I was in one of those camps, Madam Chair, right after 
Tiananmen Square with Frank Wolf. They are gulags. They are 
concentration camps. And they can hold somebody up to 4 years 
in those camps.
    Finally, the Commission maintains the most extensive, 
highly reliable, up-to-date database on political prisoners and 
religious prisoners, some 6,623 as of September 1st prisoners 
of conscience.
    When members travel to China, when they meet with China 
lawmakers, when they meet with China officials, have that 
database with you. Give that to them. And say, ``We want 
freedom for people like Chen Guangcheng, for Liu Xiaobo, Gao 
Zhisheng, and all of these other great men and women who are 
fighting the cause of human rights.''
    I thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith. Thank you for 
making it your mission to point out the human rights abuses 
worldwide. You are a champion. Thank you so much.
    Tim Walz?

     STATEMENT OF THE HONORABLE TIM WALZ, RANKING MEMBER, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Walz. Well, thank you, Madam Chairwoman and Ranking 
Member Berman and members of this committee. Thank you for 
holding this hearing on the report from the Congressional-
Executive Commission on China but thank the two of you for 
being beacons and role models for all of us on the quest for 
human rights.
    A special thank you to, as you saw, our irrepressible and 
incredibly talented chairman. Chris Smith is someone I am proud 
to call a colleague and a friend and as are people around the 
world who are oppressed. Senator Sherrod Brown, who couldn't be 
with us today, their bipartisan leadership is putting this 
Commission's work to good use. And a special thank you to the 
talented staff, who makes it possible.
    The work of this Commission holds special significance for 
me. More than two decades ago, I taught high school in China. I 
was part of one of the first government-sanctioned groups of 
American high school teachers to teach in Chinese high schools. 
I developed a great admiration for and a close connection with 
the Chinese people.
    In my lifetime, I have witnessed the Chinese people make 
significant strides. Living standards have risen. Brave Chinese 
citizens are standing up for the rights of their fellow 
citizens. They are seeking to clean up their environment, 
improve working conditions, ensure the safety of their food. 
For that, the Chinese people deserve much credit and our 
support.
    We are here today, however, to assess the Chinese 
Government's records on human rights and rule of law. And, 
unfortunately, the Chinese Government has fallen woefully short 
of the aspirations of their own people. The report assesses 
China based on China's own laws and international standard that 
China has pledged to uphold.
    Across the 20 issue areas of the report, the Commission 
found much to be concerned about. One of the biggest concerns 
was China's willingness to ignore the law when it suited them, 
especially to silence political dissent.
    The rights of freedom of expression and association were 
brutally suppressed beginning in February, following the Middle 
East protests and calls for protests within China. Most 
disturbing were the enforced disappearances of human rights 
lawyers, activists, and artists. These included the 
internationally renowned artists and rights advocate Ai Weiwei. 
Ai was kept at a secret location for 81 days, accompanied by 
guards at all times.
    The report, our China Commission's report, expresses 
particular concern regarding proposed changes to China's 
criminal procedural law that would legalize these enforced 
disappearances.
    Other Chinese citizens continue to be held illegally, even 
after they were released from prison. This was highlighted in 
the case of Chen Guangcheng. Chen was known and many of you 
know as the self-trained lawyer who was blinded at a young age 
and became a tireless advocate for the disabled, for farmers, 
for victims of the brutal population-planning abuses. Local 
officials punished his activism by locking him up for more than 
4 years on a charge of blocking traffic.
    Since his release in September 2010, officials kept him and 
his family under illegal arrest. They had beaten him and his 
wife. And they denied their 6-year-old daughter a chance to go 
to school. Chinese supporters of Chen, and journalists who have 
gone to visit him, have been beaten and detained.
    Tibetans, Uyghurs, and other ethnic minorities continue to 
struggle to maintain their religion, culture, and livelihoods 
amid an intense government pressure. Officials continue to 
discredit the Dalai Lama as a religious leader. No dialogue 
between the Dalai Lama and Chinese officials took place last 
year, the longest breaks in 2002. The Chinese Government 
continues to prevent Catholics, Buddhists, Falun Gong 
practitioners, Muslims, Protestants from freely practicing 
their beliefs.
    Workers in China still do not enjoy their fundamental right 
to organize independent unions. Instead, they must rely on the 
Communist Party-controlled union to represent their interests. 
Without genuine labor representation, Chinese workers continue 
to face poor working conditions, harassment, and low wages.
    Commercially China continues to implement policies that are 
inconsistent with its commitments to the WTO. China continues 
to unfairly favor its domestic industries and exports through 
currency manipulation, industrial policies, and illegal 
subsidies.
    The report acknowledges the efforts of well-intentioned 
Chinese officials. The report cites potential for growth in 
areas such as a draft mental health law, programs to expand 
legal aid, and attempts to improve government transparency, but 
overall the report paints a sober picture. The Chinese 
Government still denies its citizens the basic universal rights 
of free speech, press, religion, and assembly.
    As this report illustrates, China's respect for human 
rights and the rule of law has a direct impact on our lives. 
When China censors its press, we know less about the safety of 
food and products we buy from China. When China manipulates its 
currency and suppresses workers' rights, Americans lose jobs. 
When China disregards the rule of law in its treatment of its 
own citizens, that raises serious question about China's 
commitment to international agreements. But it isn't just the 
impact it has on our lives. These rights are universal and ones 
that people everywhere, including all Chinese, are entitled to 
have.
    This report will not change China. Only the Chinese people 
will change China. But it is important for this Commission and 
this Congress to continue to speak out. While the Chinese 
Government works hard to remake its image in a positive light 
around the world, we must make sure the other side of the story 
is told. We must continue to signal to those in China who yearn 
and hope for reform from the imprisoned human rights activists 
to low-paid factory workers that the people of the United 
States support and stand with them.
    With that, I yield back, Madam Chairwoman.
    [The prepared statement of Mr. Walz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much, Tim. And I 
congratulate you for taking so much of your time that you give 
to this Commission. Both of you are to be commended for helping 
the people of China, and people everywhere, be able to live in 
a society where their rights are respected and their human 
worth is celebrated each and every day.
    So we thank you both for presenting the report to us. And 
we wish you Godspeed as you prepare the report for next year. 
We certainly hope that it is a better report than this dismal 
one. Thank you so much for sharing it with us. Thank you.
    And I now would like to welcome our second panel of 
witnesses. I first want to introduce Chai Ling, one of the 
leaders from the Tiananmen Square demonstrations of 1989. Who 
can forget the photos of the young female student with the 
microphone speaking truth to power during that long-ago spring? 
Thank you, Ms. Chai.
    I want to thank you also for providing me with an 
autographed copy of your recent book entitled A Heart for 
Freedom. It details your daring escape from China following the 
Tiananmen Square. Thank you so much.
    Since arriving to the United States via Hong Kong and 
Paris, Ms. Chai has earned an MBA degree from Harvard Business 
School and an MPA in public affairs from Princeton University, 
no slacker there. She is also the founder of All Girls Allowed, 
an organization dedicated to restoring life, value, and dignity 
to girls and mothers and to revealing the injustices of China's 
coercive one-child policy. Welcome to our committee, Ms. Chai.
    Ms. Ling. Well, thank you so much, Ms. Chairwoman.
    Chairman Ros-Lehtinen. Thank you. And we will begin with 
you in a minute.
    Ms. Ling. Okay.
    Chairman Ros-Lehtinen. I am just going to introduce the 
rest of the panel. We are also glad to see as a witness Bob Fu, 
another Tiananmen Square student leader and a strong advocate 
for religious freedom in China. As an underground church 
organizer following the Tiananmen Square massacre, Bob faced 
first imprisonment and then job loss.
    Bob and his pregnant wife were able to flee to Hong Kong in 
1996, before the British left, and made their way as refugees 
to the United States through the intervention of President 
Clinton. In the year 2002, Bob founded the China Aid 
Association to focus international attention on Beijing's gross 
human rights violations directed against underground church 
Christians. Thank you so much, Bob, for being with us.
    Next we want to welcome John Kamm. Thank you, Mr. Kamm, a 
well-known advocate for human rights in China and the founder 
and chairman of Dui Hua Foundation. Since 1979, Mr. Kamm has 
made over 100 trips to Beijing related to human rights, 
specifically focusing on the treatment of prisoners and the 
conditions of the prisons. Mr. Kamm directs the project in 
human rights diplomacy at Stanford University and sits on the 
board of advisors of the Berkeley China Initiative.
    He has received numerous human rights awards, including the 
Eleanor Roosevelt Award for Human Rights from President George 
W. Bush in 2001. We are glad to have you here, Mr. Kamm. 
Welcome.
    We also have with us a real privilege, Mr. Bhuchung 
Tsering, vice president for special programs from the 
International Campaign for Tibet. Bhuchung is also a refugee 
from Chinese Communist oppression, having fled as a child to 
India in 1960 in the wake of the Chinese invasion of Tibet.
    He worked as a journalist in India before joining the 
Tibetan Government in exile in 1984. He came to the United 
States and joined the staff of the International Campaign for 
Tibet in 1995, where he oversaw overseas Chinese outreach and 
Tibetan empowerment programs. Welcome, Bhuchung.
    After I say the name five times, then I finally get it 
right. Thank you. Thank you for forgiving my mispronunciation. 
I have a difficult name, too.
    Lastly, the committee welcomes Sophie Richardson, the China 
director for Human Rights Watch. Dr. Richardson has published 
numerous articles on domestic Chinese political reform and 
democracy efforts and human rights issues in China, Hong Kong, 
Cambodia, the Philippines, Indonesia, and Vietnam. She is also 
a commentator on Asian human rights issues, having appeared on 
CNN, BBC, and National Public Radio. Welcome, Dr. Richardson.
    I kindly remind our witnesses to keep your oral testimony 
to no more than 5 minutes. And, without objection, your written 
statements will be inserted into the record.
    So we will being with you. Thank you so much for being with 
us, Ms. Chai Ling. Thank you.
    Ms. Ling. Thank you, Chairwoman.

STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED (STUDENT 
            LEADER, 1989 TIANANMEN SQUARE PROTESTS)

    Ms. Ling. I am so honored to be here. I thank you and the 
ranking members of the committee and the CECC members for your 
excellent report.
    At All Girls Allowed, we are committed to restore life, 
value, dignity for girls and mothers in China to reveal 
injustice of China's one-child policy, which is the largest 
crime against humanity on Earth today. It took place 30 years 
ago and had killed over 400 million lives. And today, every day 
there are over 35,000 forced and coerced abortions are taking 
place. Every day over 500 women commit suicide.
    So, Chairwoman, I congratulate you and thank you for your 
courageous challenge to President Hu Jintao when he visited 
America in January. And among all the human rights abuses, this 
is the only one question, your challenge to him to end the one-
child policy and forced abortions. Among all the human rights 
abuses, this is the only one area he chose to answer. And he 
said, ``There are no forced abortions in China.'' Our report 
shows that he lied in front of the whole world. And we have 
documented numerous amounts of cases throughout the past 
several decades of women who went through forced and coerced 
abortions.
    I want you to focus attention to the picture on the screen 
right now. The latest case involved Ma Jihong. You see she is 
standing there with her husband. October 14th she was working 
in the field at 9 o'clock a.m. She was pregnant with her second 
child. A group of Family Planning police went to grab her. She 
ran, ran into the cotton field. They caught her and brought her 
into the forced abortion clinics.
    By 9 o'clock p.m., her family was informed that she was 
dead with her 7-month-old baby. And by the time her family 
arrived, her eyes were still open. And her lips were purple. 
Both her and her baby were gone.
    You see, these are people making $1,500 a year, barely $2 a 
day, which is a third of the Chinese families, Chinese 
population--465 million people--live in that level of poverty. 
And you look at the shack. That is the kind of conditions they 
are living. And these people are suffering.
    We also have cases like Ms. Ji Yeqing, who testified at the 
hearing on the 31st anniversary this year. And she went through 
two forced abortions. And after she went through the forced 
abortion in 2007, the police sedated her. And during her 
unconsciousness, they enforced and placed an IUD so she could 
not have a baby again. And because the family realized she 
could no longer bear child or bear son for the family, they 
divorced her.
    And in the same hearing, there was another lady who 
testified. She endured five forced abortions in the '90s. And 
every single time, she went to be given these kinds of 
procedures with no anesthesia. Imagine a woman's body was 
opened up with no anesthesia and was just being cut into 
pieces. That is and should be defined as a torture under this 
one-child policy.
    So because of that reason, I would like to support the bill 
which, again, a hearing was taking place yesterday for H.R. 
2121, the China Democracy Promotion Act. I believe once that 
bill is passed, that the Chinese leaders who are enforcing 
these kinds of human rights violations, abuses, and torture 
against their own people will be barring a visa to enter the 
United States.
    And because of that reason, we would like to ask that our 
report of the 350 names of the top-ranking officials in China 
among the major cities would be entered into the record and to 
be the first group to be----
    Chairman Ros-Lehtinen. Without objection, subject to the 
limitations in the rules, we will enter that into the record.
    Ms. Ling. Thank you very much.
    We also have many cases documented in our All Girls Allowed 
annual report on China's one-child policy with additional 
detailed cases of these victims. And so I would like that to be 
entered into the record as well.
    Chairman Ros-Lehtinen. Without objection, subject to the 
length limitations, yes.
    Ms. Ling. Thank you very much.
    So recently there is a case of a 2-year-old girl who was 
ran over in China by two vans. And 18 members--it was a 
horrific crime on its own, but the worst is that 18 people 
stand by, did not do anything.
    So I urge the United States to end its current U.S.-China 
policy, which has put business profit, security reasons, and 
other interests above the basic human rights. It did not make 
China a better country nor strengthen the United States. So let 
us not be the same as those 18 people who stand by, chose to do 
nothing. So I urge you to stand up, speak on behalf of those 
who are voiceless.
    Thank you.
    [The prepared statement of Ms. Ling follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so very much, powerful 
testimony. And, yes, we see the H.R. 2122 filed by Mr. Smith, 
Mr. Wolf, Mr. Burton, and Mr. Rohrabacher. Thanks for bringing 
that to our attention.
    And this is her book, A Heart for Freedom and really is a 
remarkable story. And it has got the photograph of when you 
took that, the bullhorn, in Tiananmen Square. Congratulations.
    Ms. Ling. Thank you very much.
    Chairman Ros-Lehtinen. A brave fight. Thank you.
    Ms. Ling. You are welcome to include that in the 
congressional public record as well. [Laughter.]
    I don't know if that is possible, but----
    Chairman Ros-Lehtinen. That will definitely be subject to 
the length limitations.
    And three beautiful daughters. Congratulations.
    Ms. Ling. Thank you.
    Chairman Ros-Lehtinen. They certainly wouldn't be around in 
China. Thank you so much.
    Mr. Fu, we are also welcoming you to our committee.
    Mr. Fu. Thank you.

         STATEMENT OF MR. BOB FU, PRESIDENT, CHINA AID

    Mr. Fu. Thank you, Madam Chairman and the Honorable Ranking 
Member. And I also want to thank the members of the CECC and 
the leadership of Congressman Chris Smith and Senator Brown for 
their excellent work.
    In the first 10 months of 2011, religious freedom 
conditions in China continued to be poor. In fact, religious 
freedom conditions are at their lowest point since 1982, the 
year Deng Xiaoping officially ended the policy of eradicating 
religion.
    We have seen a hardening in the government's attitude 
toward religion, and policy changes that were implemented well 
before the nascent Jasmine Revolution on February 2011 has 
accelerated since that time.
    At this time, the ruling Communist Party continues to see 
those who peacefully advocate for religious freedom, free 
speech, independent labor unions, ethnic minority rights, and 
democracy as the biggest threat to its authority and future 
power.
    The Chinese Government tolerates the practice of religion 
in a limited capacity within officially controlled 
organizations and has permitted some discussion about allowing 
faith-based charity work, but the fact remains that the 
government also seeks to control and repress any religion or 
religious group that refused to be totally controlled by the 
government as well as those with extensive foreign ties and 
those it regards as a potential threat to the Communist Party. 
This includes not only just the house church Protestants but 
other religious groups as well. As China's influence and power 
grows, this pattern is unlikely to change and certainly not 
before the 2012 transfer of power to a new generation of senior 
leadership.
    Nonetheless, we do have a two-fold message that offers some 
hope, particularly if there is concerted, coordinated action 
from the United States and other governments on human rights. 
First, international attention matters and can make a 
difference. That is because it constrains what the Chinese 
Government does and how it uses its force against rights 
advocates.
    We have firsthand testimony from dissidents and prisoners 
that international attention improved their conditions and in 
some cases even protected them. Chinese security forces remain 
brutal, but for imprisoned dissidents and religious leaders, 
silence can mean death in Chinese prisons.
    I want to just introduce you. In today's audience, there is 
a lady from China. She is the wife of a Chinese democracy 
advocate, Ms. Fung Xiao. And her husband was imprisoned for 
democracy work already for 8 years. And in February 19th, he 
was detained and arrested again for simply forwarding some 
Twitter messages. He did not even organize anything, just 
forwarding a few Twitter messages. And in the past 8 months, 
both his wife, Ms. Fung Xiao, and their 6-year-old son were 
denied any access to even visit their husband and their dad.
    And Ms. Fung Xiao coming here, of course, risking lots of 
things and quitting her job, just wants to make her voice to be 
known. So I would really ask Members of Congress and media to 
talk to her to let her know that her husband would not be 
forgotten.
    Chairman Ros-Lehtinen. We welcome you to our committee. 
Thank you for your bravery.
    Mr. Fu. Thank you. She is heading back to China tomorrow 
morning.
    Second, a growing rights consciousness is spreading across 
China, exemplified by courageous human rights lawyers, such as 
Gao Zhisheng, Chen Guangcheng, and many others, who challenge 
the Chinese Government corruption and human rights abuses. The 
growing netizen community in China is the main conduit by which 
this religious consciousness is, the rights consciousness is, 
spreading. The U.S. Government may be the only government that 
China cares to listen to, must stand firmly and publicly with 
those in China who are fighting peacefully for freedom and 
rights. These brave and patriotic souls are fighting for a 
future China that respects human rights and the rule of law.
    The United States should make religious freedom and freedom 
of expression on the internet priorities of the bilateral 
relationship. Together, those two rights will do more to 
improve U.S.-China relations than all of our trade, 
investments, and cooperation on shared security interests.
    I want you to also pay attention to the increasing 
propaganda campaign by the Chinese Government in the United 
States. Yesterday I was in Dallas after presenting a copy of 
the Bible to the President Bush, former President Bush, and 
First Lady Laura Bush as the freedom collection of his 
Presidential center. The Bible was hand-copied by the Chinese 
prisoners in the labor camps in order to read Bible.
    And then I found the Chinese Government actually 
orchestrated a so-called Bible exhibition campaign held already 
in Washington, DC, and Chicago and this week in Dallas and next 
week will be in the Billy Graham Evangelistic Association and 
is nothing but political manipulation, lies. The tragic thing 
is our Americans--and I think should be awakened up--becomes 
sponsors, raising funds for this propaganda all over the U.S. 
What are they doing? Between those----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Fu. Thank you very much.
    [The prepared statement of Mr. Fu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, powerful 
testimony.
    Mr. Kamm, welcome.
    Mr. Kamm. Thank you, Chairman.

  STATEMENT OF MR. JOHN KAMM, CHAIRMAN, THE DUI HUA FOUNDATION

    Mr. Kamm. And I would like to commend you for holding this 
first-ever hearing on the report of the Congressional-Executive 
Commission on China. Thank you for inviting me.
    On August the 30th, the National People's Congress posted 
on its Web site the text of a draft amended criminal procedure 
law. While it may be revised, it is expected to pass at the NPC 
meeting in March.
    There are several positive aspects to the amended criminal 
procedure law. I would point to, for instance, better treatment 
for juvenile offenders and women in prison. However, in one 
very important aspect, the amended criminal procedure law 
represents a step backwards, a step in the wrong direction. And 
that is in the treatment of those suspected of endangering 
state security.
    If passed, the draft amended criminal procedure law would 
complete a move underway for many years to create a dual track 
legal system: One for 99 percent of Chinese citizens suspected 
of committing crimes, rape, murder, and so on; and the other 
system for those suspected of committing crimes that threaten 
the Communist Party and the government's grip on power. And the 
most serious of those crimes, though by no means the only 
crime, is endangering state security.
    Around the time that the CEEC report is issued, the Chinese 
Government, quite by coincidence I'm sure, releases statistics 
on the number of people arrested and indicted for endangering 
state security crimes in China as well as the number of trials.
    What do these numbers tell us? Well, for the third 
consecutive year, more than 1,000 people have been arrested, 
indicted, and tried for endangering state security.
    Now, in light of this high level of arrests and the virtual 
absence of any acts of clemency toward prisoners convicted of 
speech and association crimes, we now can say that there are 
more people in prison for committing political crimes than at 
any point since 1989. What can we say about these prisoners? 
First of all, more than half are ethnic minorities. I am basing 
this on a statement by the President of the High Court of 
Xinjiang. More than half of the state security trials in 2010 
were held in Xinjiang. Seventy-five to eighty percent of 
endangering state security crimes are speech and association 
crimes. And the sentences are long. Acquittals are unheard of 
in these trials.
    Now, in the 2 minutes remaining, I would just like to 
quickly trace the route of a typical endangering state security 
suspect through this separate legal system.
    The new law provides for electronic monitoring of state 
security suspects. When they are detained, their families are 
rarely notified as this would ``hinder the investigation.'' The 
new criminal procedure law allows for putting state security 
detainees in non-residential surveillance. The combination of 
non-notification of the family and placement in a place other 
than the residence constitutes enforced disappearance under 
international law. Access to counsel is restricted. The case 
itself, the entire case, can be classified as a secret. And 
once that happens, the trial is closed, nor can there be any 
media coverage nor can even the family say anything about it.
    After conviction, the convicts are sent into prison. In 
prison, they are classified as so-called important prisoners. 
There is a code on their uniforms that tells people, anyone who 
looks at it, that they are a political prisoner.
    In prison, they almost never get sentence reductions nor 
paroles. We are not aware of a single case of a sentence 
reduction or parole in over 2 years for prisoners serving 
sentences for speech and association. After the sentence is 
complete, they have to serve a sentence of deprivation of 
political rights. And recently the Chinese Government has 
dusted off a long unknown set of regulations which allow for a 
special treatment during this period.
    I would like to say one more thing about state security 
detainees. And that is, despite the efforts of the Commission 
and human rights groups represented here, we know less than 10 
percent of their names. In other words, 90 percent of their 
names we don't know. We must continue to find their names and 
speak their names, remembering what Milan Kundera told us: That 
the struggle of man against power is the struggle of memory 
against forgetting.
    Thank you, Chairman.
    [The prepared statement of Mr. Kamm follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Powerful statement. Thank you so 
much. I had forgotten that statement. Say that again.
    Mr. Kamm. Excuse me?
    Chairman Ros-Lehtinen. Give me that phrase again.
    Mr. Kamm. Oh, yes. The struggle of man against power is the 
struggle of memory against forgetting.
    Chairman Ros-Lehtinen. Thank you. Thank you so much.
    Mr. Bhuchung Tsering?

   STATEMENT OF MR. BHUCHUNG K. TSERING, VICE PRESIDENT FOR 
       SPECIAL PROGRAMS, INTERNATIONAL CAMPAIGN FOR TIBET

    Mr. Tsering. Thank you, Madam Chairman, Congressman Berman, 
and members of the committee.
    Chairman Ros-Lehtinen. Hold that a little bit closer to 
your mouth.
    Mr. Tsering. This hearing comes at a critical juncture in 
the modern history of Tibet. As, Madam Chairman, you yourself 
referred, Tibetans in unprecedented numbers have started 
resorting in their despair and some would say in their 
extraordinary courage and conviction to the most extreme form 
of protest imaginable: Self-immolation. Just today we received 
news of another Tibetan who committed self-immolation and who 
has died as a result of it.
    We value the work of the CECC and commend its annual 
report, not only for its rigor of its reporting but also for 
the breadth of its scope.
    I would like to comment on the CECC's report by linking it 
to what is happening with Tibetans in Tibet today. With today's 
development, 12 Tibetans have self-immolated since March 2009 
and 11 since March of this year. All but three of these were 
from the Kirti Monastery in Ngaba, a Tibetan region in Eastern 
Tibet.
    Why are these young Tibetans resorting to such grave 
actions? And why are they mostly clustered around Kirti 
Monastery? Much of the answers can be found in the annual 
report of the CECC. It talks of very many religious 
restrictions in Tibet today, including a rigorous campaign to 
discredit His Holiness the Dalai Lama.
    Similarly, the report highlights the fact that nine of ten 
Tibetan autonomous prefectural governments have issued or 
drafted regulatory measures to restrict religious actuators. On 
top of these restrictions, specifically the Ngaba region has 
been subjected to a severe security crackdown since the pan-
Tibetan demonstrations of 2008.
    Although the recent developments have drawn attention to 
Eastern Tibetan areas, the fact is that all over Tibet, the 
Tibetan people are experiencing a tense atmosphere. A climate 
of fear pervades in all Tibetan areas because of the misguided 
policies of the Chinese Government.
    The timing of today's hearing is propitious. This 
afternoon, the elected head of the Central Tibetan 
Administration in Dharamsala, Dr. Lobsang Sangay, will be 
testifying before the Tom Lantos Human Rights Commission. Since 
the Dalai Lama relinquished his political role, the Kalon 
Tripa, as Dr. Sangay's position is called, has assumed a much 
more important role. Dr. Sangay will also be joined by Kirti 
Rinpoche, the spiritual head of the Kirti Monastic community, 
where much of these immolations have taken place. And I urge 
members and all of you to attend this afternoon's hearing.
    I would also like to request that the text of the 
testimonies of Dr. Sangay and Kirti Rinpoche be inserted in the 
record.
    As Members of Congress deal with the recommendation of 
today's hearing, we would like to support all recommendations. 
Specifically we would also like to add three more 
recommendations based on our perception: First, update and 
strengthen the Tibetan Policy Act.
    The Tibetan Policy Act of 2002 is a comprehensive and 
pragmatic expression of congressional support for the Tibetan 
people. We urge the committee to explore further ways to 
strengthen the Act to take into account new developments in 
Tibetan politics, including development inside Tibet.
    Given Congress' longstanding promotion of international 
religious freedom, the committee should explore whether the 
Tibetan Policy Act can be used to clarify U.S. policy on the 
succession or reincarnation of the Dalai Lama and issues that 
might have much consequences in the coming period. That act can 
also be updated to include legislature authorization and policy 
guidance for assistance for Tibetan refugee settlements.
    Second, promotion of the Tibetan-Chinese dialogue. The 
Congress should continue to send the strong message to China 
that it supports His Holiness the Dalai Lama's initiative for a 
solution to the Tibetan issue through dialogue. And many 
Members of Congress have referred to this issue.
    Third, restrictions on Chinese delegations from or about 
Tibet. The State Department reports that three-quarters of 
diplomats' requests to visit Tibetan areas are denied by the 
Chinese Government.
    On the other hand, here in the United States, Tibetan 
Americans are subjected to a racially discriminatory process 
when they apply for visas at the Chinese Embassy and 
consulates. And many of them do not get permission even after 
that. However, China is freely able to send delegations to the 
United States to denounce His Holiness the Dalai Lama and to 
spread its propaganda about Tibet.
    The Congress should look for ways to impose restrictions in 
a situation where the Chinese Government is not respecting the 
diplomatic principle of reciprocity. As an example, the State 
Department could be asked to deny visas to those people who had 
been involved with the current ongoing crackdown in Kirti 
Monastery and to get an explanation of the pretext or 
conditions under which monks have been removed and their 
current whereabouts.
    In conclusion, I once again appreciate the opportunity to 
testify here today and welcome the committee's examination of 
the human rights in China and Tibet through its oversight of 
the CECC report.
    Thank you, ma'am.
    [The prepared statement of Mr. Tsering follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
testifying.
    Dr. Richardson, you are now recognized.

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thank you very much for having us, as 
always, to members of the committee, also to the CECC for 
producing another excellent report, and to my distinguished co-
panelists.
    I was asked this morning to speak specifically about policy 
recommendations, although I strongly share many of the concerns 
that have been articulated, particularly about the immolations. 
So I would like to focus on four particular issues.
    First, I think there has never been a point in time when it 
is so clear that the securing of U.S. interests, broadly 
speaking, in China has a considerable bearing on securing human 
rights and the rule of law there. Given that, the U.S. needs to 
raise these concerns through diverse and coordinated actors, 
not just the usual suspects of the State Department.
    Doing so is more likely to produce results because it will 
address a broader spectrum of Chinese officials and indicate a 
seriousness of purpose by the U.S. While we do see more diverse 
agency representation in the bilateral human rights dialogue 
and the strategic and economic dialogue, that participation is 
not being put to discernible use between meetings. Nor are all 
of the relevant agencies given the opportunity and urged to 
assume an obligation to discuss human rights issues.
    Nearly 3 years into this administration, there is still no 
functional interagency working group on human rights issues 
that could coordinate such an effort, and critical 
opportunities are being missed as a result.
    We also continue to see cabinet members visit Beijing or 
receive their counterparts and fail to raise human rights 
issues. Attorney General Eric Holder is a laudable exception. 
There is a human rights issue in China for every U.S. agency 
and for every cabinet member. They must be tasked with raising 
those issues in every interaction with their Chinese 
counterparts. I think we should imagine what the world would be 
like if Mr. Smith got to sit in on every high-level interaction 
with the Chinese Government.
    Second, we cannot emphasize enough how much continuity 
matters when speaking about human rights issues with the 
Chinese Government. They are as attuned to what goes unsaid 
from one meeting to the next as they are to what is said or 
what is said differently and are eager for an opportunity to 
suggest that the U.S. has softened its stance.
    This administration initially turned in a distressingly 
weak performance on these issues, found its voice in late 2010, 
but now seems to be fading again. Secretary Clinton's January 
2011 speech and former Ambassador Huntsman's strong and 
unapologetic remarks on human rights are fundamentally 
undermined when Vice President Biden and Ambassador Locke in 
September 2011 not only offer softer remarks but go so far as 
to suggest that the Chinese and the American people, not 
governments, have different views on human rights.
    It is equally unhelpful that many American officials 
continue to raise human rights following a disclaimer that it 
is a topic about which the two sides will disagree. In fact, 
there is strong popular support inside China for universal 
human rights. Simply put, the U.S. needs to get and stay on 
message.
    Third, American officials do themselves and human rights 
defenders in China little good when they merely say publicly 
that human rights were discussed with the Chinese Government, 
period, full stop, with no details.
    A statement just last week exemplifies this problem, ``The 
two sides also discussed the South China Sea and human 
rights.'' But what got discussed? Individual cases? Broader 
trends? The costs the U.S. would impose for noncompliance or 
regression? And what was the outcome? An account of topics 
discussed and outcomes not only serve to underscore U.S. 
concerns but enables other actors to amplify the message and 
judge progress or obstacles.
    Assistant Secretary Posner helped buck this trend when he 
spoke publicly after the last round in Beijing of the bilateral 
human rights dialogue, describing the Chinese Government's 
responses to queries about individual cases as ``having given 
no comfort.''
    Finally, while it is appropriate that the U.S. focuses some 
of its human rights diplomacy on the Chinese Government, this 
should not be to the exclusion of efforts directed at a much 
larger Chinese audience and at independent voices. The U.S. 
should put social media to better use, particularly by making 
very senior officials available regularly to communicate with 
people in China and do a better job of listening to and 
acknowledging a far broader audience, rather than placing the 
views of a decidedly unrepresentative government at the center 
of its thinking.
    President Obama should meet with former Chinese, Tibetan, 
and Uyghur political prisoners, as many people on this 
committee have, and publicly praise the countless acts of 
bravery against arbitrary rule that take place every day. U.S. 
officials manage in nearly every speech to reassure the Chinese 
Government that the U.S. ``welcomes a strong and prosperous and 
successful China.'' Could those officials not offer comparable 
words of appreciation for those who are doing and risking the 
most to actually affect the rule of law, greater transparency, 
and decent governance? Short of having the Chinese Government 
react constructively to their concerns, what could be more 
empowering to those who struggle for what the U.S. says it 
wants in China than hearing the U.S. raise their concerns about 
human rights?
    Even the most determined U.S. policy on these issues may 
not yield immediate change from or with the Chinese Government, 
but long term, the messages will be absorbed and not least will 
immediately encourage those who are fighting every day here and 
now to protect their rights.
    Thank you.
    [The prepared statement of Ms. Richardson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much. Good policy 
recommendations.
    I will ask the first questions. I wanted to talk about the 
one-child policy. And Ms. Ling can answer or anyone else. You 
had pointed and we saw the photo of what had happened in one 
family's struggle just a few weeks ago. And in the report, they 
highlight one case, a similar case, in October of last year, 
where local family planning officials in southern China 
kidnapped a woman.
    Ms. Ling. Yes.
    Chairman Ros-Lehtinen. She was 8 months pregnant----
    Ms. Ling. Yes.
    Chairman Ros-Lehtinen [continuing]. With her second child. 
They detained her for 40 hours----
    Ms. Ling. Yes.
    Chairman Ros-Lehtinen [continuing]. Forcibly injected her 
with a substance that caused the fetus to be aborted. And 
during that time, the husband was not permitted to see her. And 
I wanted to ask you, how widespread are such coercive 
practices, the example that you showed us, the many examples in 
the report?
    And related to that, the population statistics, as you 
point out, clearly indicate a growing gender imbalance in China 
with a lack of female children and young women of marriageable 
age due to this coercive----
    Ms. Ling. Yes.
    Chairman Ros-Lehtinen [continuing]. One-child policy that 
they say does not exist and their preference for male children. 
Many have termed the selective abortion of female fetuses as 
gendercide.
    Ms. Ling. Yes.
    Chairman Ros-Lehtinen. Why do you think that this is being 
done? Why don't they realize that the obvious problems that 
they will be facing in the future in the increasing shortage of 
women and girls? And why don't they alter their policy to at 
the very least for their own survival be able to stop this 
practice?
    Ms. Ling. Yes. Thank you, Chairwoman, for this excellent 
question. First of all, CECC did an excellent report, the one-
child policy abuses, including that case you mentioned. That 
was caught on Aljazeera's TV. And the woman, who was 8 months 
pregnant, with her belly full--the baby was almost full term--
was already injected with poison and was dead. That video is on 
All Girls Allowed's Web site as well.
    And I, working with my lawyers, went to her aid afterwards. 
Unfortunately, we did not know beforehand. We learned after we 
intervened, that the government compensated them for some 
financial compensation and housing assistance. What I want to 
say is, affirming all of the panelists' suggestions, is that 
when we speak out, China does cave in, does cooperate, does 
make improvements in human rights.
    The second thing regarding China's current enlarging gender 
imbalance also shows and also confirmed by China's recent 
census report that China has a large gender imbalance. For 
every six girls that are scheduled to be born, the number six 
girl will be aborted, or killed right after birth, or 
abandoned. And so, therefore, the number six boy would have 
grown up with no wife to marry.
    So after 30 years of this policy, China today has over 37 
million single men, called single branches. As a result of this 
large amount of men who, you know, could not find a wife to 
marry, they become a major source for sex trafficking. Today 60 
percent of the world's trafficking takes place in China.
    And, in addition to that, China had our expert testify in 
June at the Ending Gendercide Coalition meeting. They believe 
China is on the verge of HIV and other sexual disease epidemic 
breakout because of that very reason, because the commercial 
sex industry is unregulated.
    The third thing is China has a rising problem with sex 
trafficking against young girls. We discovered in our report in 
Putian, one city has over 3 million residences, up to between 
100,000 to 600,000 people, might be the result of child bride 
trafficking.
    What has happened is that families are taking matters into 
their own hand. They go to the black market. They create the 
black markets to demand girls to be bought at ages as young as 
3 years old to eight or nine. So All Girls Allowed volunteers 
were able to reunite 4 of these families in China, but every 
year there are over 600,000 cases where children are 
trafficked, mostly women.
    You asked the question, why does China not take action to 
end this? Yes, we heard the All Women's Federation and the 
central government's Family Planning Committee, making noise 
about how they have got to eradicate this kind of gendercide. 
They are going to take the family who is going to bore their 
baby girls into serious punishment. But why have they not done 
this effectively, aggressively?
    For example, there is another way to do it, is to welcome 
baby girls to come in. All Girls Allowed has a baby shower 
program. For as little as $240 a year, $20 a month, we can 
work. We can save a baby girl and her mother and last year we 
were able to save 550 baby girls. And these are the pictures.
    Chairman Ros-Lehtinen. Thank you. Is that part of your----
    Ms. Ling. Yes, it is part of the report. And so it can be 
done. So we encourage U.S. to continue to do some of that. Just 
welcome baby girls.
    Chairman Ros-Lehtinen. Thank you so much.
    Ms. Ling. And change the culture. But there's an alarming 
trend, which we suspect is taking place. The government does 
not want to get rid of all the single man because these single 
man are a resource for potential military expansion together 
with its nationalism and ambition. And they never gave up to 
use military force to take over Taiwan.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Ling. There could become a global threat to peace, to 
the U.S. and the world.
    Chairman Ros-Lehtinen. That is true. Thank you so much. 
Thank you for that testimony.
    Mr. Berman is recognized for his questions.
    Mr. Berman. Thank you very much, Madam Chairman. And thank 
all of you for your testimony and a number of your 
recommendations.
    In some of your testimony, you contrast the Chinese 
Government and the Chinese people. Prime Minister Wen, called 
for political reform in China and acknowledged the Chinese 
people's need for democracy and freedom is irresistible. What 
do you think he meant by ``political reform''?
    Our general view of the Chinese Government is a totally 
top-down democratic centralism. Is there some debate within 
Chinese Government leadership circles about this irresistible 
need for greater democracy and freedom? What is your sense from 
following what the Chinese, what the Communist Party and the 
Chinese Government are doing on this? What did he mean?
    Ms. Richardson. I can try to take a stab at this. I think 
there's a big asterisk at the end of that phrase, which is that 
he's talking about democracy or political participation with 
Chinese characteristics, which means that the Chinese Communist 
Party remains in power and unchallenged.
    And by ``political reform,'' I think he means ways of 
resolving serious kinds and incidents of protest or unrest or 
grievances but not by offering up, for example, competitive 
elections. It does not by any stretch mean democracy in the way 
that you or I would understand it. It is about resolving 
isolated problems without really allowing genuine political 
participation. This is my interpretation.
    Mr. Berman. Did you want to just--because I have one more 
question. So if one of you could just speak? And then I want to 
ask my other question.
    Mr. Fu. Okay. I think the observation is, of course, you 
know, maybe as an individual. As a leader, Premier Wen has the 
intention or wanted to advance some kind of political reform. 
But, of course, words need to meet with action. I think it is 
more fundamental to protect the control and dictatorship of the 
one-party political system as well as their economic interest 
of the----
    Mr. Berman. So basically what you are really saying is he 
is saying that this is a maneuver to enhance the ability of the 
party to continue control, show a little leg or something, as 
part of a strategy of maintaining control?
    Mr. Fu. Yes, like, you know, the government leader has been 
talking about, loudly about, the building of harmonious 
society.
    Mr. Berman. Right.
    Mr. Fu. At the same time, the capital city of China, every 
week they are cracking down a church.
    Mr. Berman. Let me just see if I--on the internet, battle 
between the government censors and the people who are trying to 
circumvent that censorship. What is the most effective U.S. 
policy to help promote internet freedom in China? Do any of you 
have any thoughts about that?
    Ms. Richardson. I will take a stab at it.
    Mr. Berman. Sure.
    Ms. Richardson. Well, first of all, I think ensuring that 
U.S. companies are themselves not part of the problem, but, 
rather, a part of the solution I think making sure that the 
U.S. as part of its diplomacy is really engaging through these 
means and using it as a way of demonstrating the normalcy of 
people communicating with government officials, there have been 
various legislative attempts to push for greater internet 
freedom in China and other places. I think the current version 
of GOFA, which Mr. Smith started, includes a lot of the 
concerns that we have, both about how to characterize 
countries, how to sanction ones that restrict internet access. 
But I think demonstrating or leading by example should be at 
the core of the thinking.
    Mr. Berman. All right. I think my time has expired.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight Investigations, is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    I want to follow up on what Mr. Berman was just getting to. 
And that is the role played by U.S. corporations. If you could 
just give me very short answers? Because I have got a couple of 
other questions I would like to ask.
    Do you believe that American corporations that are now 
doing business in China have had a positive impact on the level 
of human rights, respect for human rights, by the government or 
have they, instead, created an impression that Americans don't 
really care, thus having a negative impact? Just could you give 
a very, very short answer for each of you?
    Ms. Ling. Yes.
    Mr. Rohrabacher. Negative impact or a positive impact? Have 
American corporations given the impression that we Americans 
believe in this and, thus, the people they work with, at least 
the local officials, know that we stand for something different 
or have they, by and large, given the impression we don't care 
about it and, thus, encouraged them to encourage local 
officials in the wrong direction?
    Ms. Ling. Our understanding is the American corporations in 
China have not set a good example. And they basically, you 
know, came out with a dictatorship, making profit. As a result 
of that, America's middle class and poor people are losing our 
jobs to China. And the rich people----
    Mr. Rohrabacher. No, no, no, no. I'm asking whether or 
not----
    Ms. Ling. Right. Sorry.
    Mr. Rohrabacher [continuing]. American corporations have 
had a good impact on----
    Ms. Ling. Human rights.
    Mr. Rohrabacher [continuing]. On, actually, enforcement of 
human rights or have they had a negative impact?
    Ms. Ling. Negative impact. Sorry.
    Mr. Fu. Much more negative than positive.
    Mr. Rohrabacher. More negative than positive?
    Mr. Kamm. In the area of civil and political rights, 
marginal at best.
    Mr. Rohrabacher. Marginal at best?
    Mr. Kamm. I would say more on the negative side.
    Mr. Tsering. I would say more on the negative side.
    Ms. Richardson. I'm with John on this, more on the negative 
side with some marginal improvement, very marginal.
    Mr. Rohrabacher. Okay. What especially is true, Madam 
Chairman, with those corporations that sell electronic 
equipment or other types of equipment that permits the Chinese 
dictatorship to more efficiently oppress its own people and 
track down its opponents and those are things that we should be 
embarrassed as Americans that any of our citizens would stoop 
to that level.
    I would like to ask a question about the forced abortions. 
Did you say there were 400 million babies that have been 
forcibly aborted?
    Ms. Ling. Yes. This is the number that was given by Chinese 
Government. They were boasting under the one-child policy, they 
were able----
    Mr. Rohrabacher. So one needs to do something that will 
demonstrate the magnitude of what 400 million fetuses, 400 
million human beings are all about. That is more than the 
population of our country. So it is probably the population of 
North America. And gone, dead, you know, snuffed out. People 
need to know the magnitude of this crime----
    Ms. Ling. Absolutely correct.
    Mr. Rohrabacher [continuing]. Monstrous crime against 
humanity, not just against the women of China but all humanity.
    Now, how have women rights organizations in the United 
States responded to this massive crime against women? Have they 
played a positive role or have they, like our corporations, 
ignored this issue?
    Ms. Ling. From our knowledge, they have done very little.
    Mr. Rohrabacher. So are women's rights organizations, the 
great bastion of liberal change in America, like our corporate 
leaders, not standing up for, what should be, the principles 
which they stand for? Do you agree with that?
    Mr. Fu. Yes. I agree.
    Mr. Kamm. I would agree with that.
    Mr. Tsering. I would think so, yes.
    Ms. Richardson. Yes and no.
    Mr. Rohrabacher. Yes or no? I can't hear you.
    Ms. Richardson. There are some organizations that have done 
some work on this issue, but it has certainly not--you know, I 
think if we are talking about 400 million people----
    Mr. Rohrabacher. Okay.
    Ms. Richardson [continuing]. It is not at least that order 
of magnitude.
    Mr. Rohrabacher. You know, shame on us if we don't live up 
to our own ideals.
    Finally, one last question for Mr. Tsering. Does your 
organization believe that--let me make sure I get the wording 
down for this question. In 1987, President Reagan signed into 
law a congressional resolution condemning China's occupation of 
Tibet as a country. In 1991, another resolution was signed into 
law that stated that Tibet was an occupied country. Does your 
organization believe that what is going on in Tibet today is a 
violation of human rights of Chinese people who live in Tibet, 
meaning you're Chinese, or is this a violation of your human 
rights as the people of Tibet, which is an occupied country?
    Mr. Tsering. I think if you look at history, it is 
categorically clear that Tibet is an occupied country.
    Mr. Rohrabacher. So your organization believes that Tibet 
is another country that the rights of the people are being 
violated by foreign power?
    Mr. Tsering. Historically if you look at it, it is so.
    Mr. Rohrabacher. Okay. Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Dana 
Rohrabacher.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    Ms. Ling, I was noticing in your biography that you were a 
student leader in the Tiananmen Square uprising some 22 years 
ago. And I look at that as the precursor of what we have 
witnessed over the past year in the Arab world with a lot of 
uprisings there. It is often said that the two most powerful 
forces in the world today are youth and technology and that 
these uprisings are not about material things. They are about 
people that wanted to be treated as citizens and not subjects.
    I am curious to know from you. Twenty-two years ago we 
didn't have Twitter. We really didn't have Facebook. We didn't 
have YouTube. We clearly had the internet but in its infancy. 
What was the means of communication to effectively organize--
because, you know, today's technology is used both for 
aspirational purposes but also for organizational purposes as 
well, what was the means of communication 22 years ago that 
brought so many young people into Tiananmen Square, 
particularly in the midst of a government that is very good at 
repression?
    Ms. Ling. I was one of the key leaders of 1989's movement. 
And I just recently finished my memoir 22 years later, A Heart 
for Freedom, to put all of these pieces together. What brought 
us together, what led to the crackdown, and what is the meaning 
and why?
    What brought us together is the desire to be free, the 
desire to create a better, peaceful China. What led to the 
crackdown was the government's fear that they would lose 
control and the desire that they can do whatever to massacre 
their own people and they would be able to get away with that. 
And they were right for the most part. The rest of the world, 
you know, all screamed for a few years, went back to them, now 
do business, resumed diplomatic relationship, that is wrong.
    That was no mean to China. Yes, youth and technology are a 
key part, but ultimately is the heart for freedom, the desire 
for freedom placed by God into us. And that is what I learned.
    One recent example is that Canada's strong condemnation of 
persecution of Falun Gong did not halt their corporation. In 
fact, it was followed by a new trade agreement expanding 
Canada's grain export to China.
    So be strong. Be courageous. That is all I can say. And we 
are going to visit Europe next week. I will definitely present 
all the report we are doing today. We are creating. We are not 
stopping creating an international coalition effort to 
strengthen the human rights voices.
    Mr. Turner. Thank you for your courageous efforts.
    Ms. Ling. Thank you.
    In China, through the massacre, God brought the best out of 
an evil situation. He is freeing China by bringing more and 
more people to come to know Him through Jesus.
    Mr. Higgins. You know, I understand the issue of emotion 
and the heart, but the tools of organization, the tools of 
collaboration are found in social media.
    Ms. Ling. Yes.
    Mr. Higgins. And we see other parts of the world where 
people who feel oppressed are rising up using those tools, 
again both for aspirational purposes and organizational 
purposes. My question is, you know, you can ban all of these 
media outlets, but what the internet has allowed us to do 
today----
    Ms. Ling. Right.
    Mr. Higgins [continuing]. Is take something that is 
occurring in a very remote part of the world and put it on a 
global platform.
    Ms. Ling. Absolutely.
    Mr. Higgins. And that gives you the ability again to 
organize to inspire.
    Ms. Ling. Yes, yes.
    Mr. Higgins. Why haven't the oppressed Chinese people been 
able to successfully utilize the social media to do a modern-
day demonstration, much like you did 22 years ago in Tiananmen 
Square?
    Ms. Ling. They are doing that. The cases from Aljazeera 
that were able to feature the woman with the forced abortion 
was exposed on China's Twitter, through micro blogging in 
China. So those kinds of works are taking place. They are not 
clear yet, but it is still brooding. It is taking place.
    And I do want to advocate for Voice of America and Radio 
Free Asia. Those media in 1989 were instrumental to help bring 
the voice of freedom back to China. I give you an example.
    Four days after the massacre, when the whole world did not 
really know what happened at Beijing, I was on my way to 
escape. And when I saw the leaders were denying about the 
massacre, I made a radio tape and that radio tape was smuggled 
out of China before me and 2 days later when I was hiding 
inside China, I heard my own voice coming back through the 
Voice of America.
    I do believe we should continue leveraging the traditional 
media and the new media and to encourage the Chinese people to 
rise up, to collaborate. We also should remember that the 
Chinese Government is becoming much more sophisticated as well. 
And so our challenge is bigger. And that is why I believe 
fundamental spiritual beliefs and strength from the faith, 
knowing the God who will set China free will inspire people to 
put their lives at risk again to continue to search for 
freedom. And that day will come.
    Mr. Higgins. Thank you. I am out of time, and I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Higgins.
    Mr. Turner of New York is recognized.
    Mr. Turner. Thank you, Madam Chair.
    We are fortunate to have two Tiananmen survivors here with 
us today. I would like to ask you how you feel about the 
lifting by the EU of the Tiananmen sanctions against China and 
what effect the human rights situation in that country will be. 
Also, what is the effect on morale, people who are striving for 
human rights with this apparently lifting of the sanctions?
    Mr. Fu. Certainly, the lifting of the sanctions that has 
been upheld starting right after the Tiananmen massacre sent a 
very wrong signal, sent one signal to the Chinese dictators 
that after years of economic diplomacy, they can win, at least 
approval, from important international body. It sent the wrong 
signal to the Chinese people. Of course, that only maybe 
economic matters is the most important.
    I think the spirit, however, the spirit of the Chinese 
people for freedom is continuing to grow. And you have like 
the--every Sunday in the past 30 Sundays, one church, house 
church, in Beijing with 1,000 members, they lost their property 
to worship. And they have to go outdoors.
    So every Sunday there are deliveries, sometimes as many as 
500. They risk their own lives because the guards, the security 
forces were right out the doors. So they climb the windows in 
the darkness, sometimes from Saturday, Friday night, hiding in 
the parks, hotel room, in order to go to the worship place to 
have altar worship. And so far in the past 30 weeks, already 
over 500 of the members were detained. All their church 
leaders, pastors, elders had been under house arrest without 
any freedom of movement. Yet, they are still doing it.
    And even the blind activist, you know, Chen Guangcheng, the 
government has mobilized maybe 200 or maybe even more hooligans 
or government hired guards tried to pick up the visitors. Yet, 
you know, every day now the netizens, they just keep going, 
keep going through picking up, but they are not discouraged. We 
think freedom will prevail.
    Mr. Turner. Thank you, Mr. Fu. Did you ever----
    Ms. Ling. Would you like my comments as well? Thank you.
    Mr. Turner. I most certainly would.
    Ms. Ling. Yes. Thank you.
    I do believe EU lifting the human rights ban is a huge 
mistake. And appeasement with evil does not work. It never 
worked in the past. It would not work with China. Rather, I 
wanted to point out when international communities stand up 
against China on basic human rights, instead of losing ground, 
they are gaining.
    Mr. Turner. Just on a different note, not that many years 
ago, as a businessman, I thought prosperity would bring in 
democracy there, contact with the West, contact with Hong Kong. 
And, instead, what we have seen is a morphing economically from 
communism to fascism and keeping the worst elements of both 
philosophies. So keep up the fight.
    Ms. Ling. Thank you very much. I am an entrepreneur myself. 
I completely agree with you. President Hu Yaobang, his death 
led to the movement in 1989. He was advocating for three 
reforms: Economical, political, and spiritual. I am glad to 
report back economically after the reform Deng Xiaoping wanted 
China to have this total rich and poor gap.
    Five thousand families own 70 percent of China's wealth. 
And the other middle class people divide the other 20 percent. 
But 465 million people live in extreme poverty. And they're 
forgotten because the world only sees the glimpse and glare of 
the rich.
    And politically there are continued human rights abuses, 
very little, no political reform. But China has a vibrant faith 
movement on Earth today. That is the hope.
    Back 22 years ago, I did not understand what he meant by 
three reforms. Now I think that is a good recipe for a free 
China. So don't give up.
    Mr. Turner. Yes.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Turner. Keep educating us. Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Mr. Connolly of Virginia is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman. And welcome to our 
panelists.
    Let me ask Mr. Fu and maybe Ms. Ling. What lessons do you 
think the Chinese Government has learned or taken away from its 
own experience with the Tiananmen Square tragedy?
    Ms. Ling. The Chinese Government--so in doing my memoir, to 
research that, I wanted to understand what made Deng Xiaoping 
want to kill. He was terrified because he realized that 
Tiananmen was not just a student movement. It was an 
international force for democracy. If he did not stop that 
trend, China would be set free. In his mind this was making 
chaos. And so he had to use tanks.
    One raised questions about opposition, saying, ``How would 
the international community react to it?'' And he said, ``Well, 
don't worry about it. They will yell and scream for a few 
years. And then they will come back because we are such a big 
piece of meat. And they all want a piece of action off us.''
    And, unfortunately, his prediction was correct. So that is 
what happened in the past 22 years, both in the U.S.-China 
relationship and also the European-China relationships. That 
needs to be stopped. The Chinese Government has been rewarded 
for their brutality by us being silent, by us trading off human 
rights, human dignity, humanity with trade, with national 
security, all the other interests. And that did not make 
America stronger. We are a much weaker United States as a 
result of that.
    As Tocqueville said in 1831, America is great because it is 
good. Once it ceases its goodness, it will cease to be great. 
That is why I am so thankful today as the chairwoman is hosting 
this first ever CECC report hearing. It is so important to know 
that appeasement does not do America any good where the 
crossroads----
    Mr. Connolly. Ms. Ling, we are dealing with foreign policy 
here in the House Foreign Affairs Committee. And you used the 
word ``appeasement.'' So what is the alternative? Would you 
have favored the severing of diplomatic relations and trade 
relations and economic relations between the United States and 
the People's Republic of China over Tiananmen Square?
    Ms. Ling. No, I would not favor totally abolishing our 
relationship, but I would favor when we go in, we come back to 
our staff according to a godly manner that is act justly, love, 
mercy, and walk humbly with our Lord, our God. The Chinese 
Government itself is finding their own faith. And the very fact 
they are having a Confucius statue right in front of Mao's 
memorial is their own declaration that the communism ideology 
is dead.
    The Tiananmen massacre not only killed the faith of the 
Chinese people toward the ideology. It also killed their very 
own belief. So they are looking. They will look after people 
who really have true faith, have true value. Yet, what I would 
encourage us, is engage them on the dialogue, on the trade 
relationship, particularly on the trade relationships, to have 
a code of conduct in accordance with basic respect for human 
rights. Instead of just focusing on trade and profitability, 
that worsen the basic labor conditions, and human rights 
abuses, I would like to see U.S. pass a trade code of conduct 
law to require all companies, for example, to refuse----
    Mr. Connolly. Thank you.
    Ms. Ling [continuing]. And not tolerate fascism imposing 
the one-child policy and forced abortion.
    Mr. Connolly. Thank you very much.
    Ms. Ling. You're welcome.
    Mr. Connolly. Ms. Richardson, my time is running out here. 
The Nobel Peace Prize last year was awarded to the imprisoned 
Chinese literary critic and dissident Liu Xiaobo. To what 
extent do you think that the award of that prize had an impact 
on the Chinese Government with respect to human rights 
observance, if any?
    Ms. Richardson. Oh, it made them nuts. They hated it. And 
the reaction it prompted I think really was extraordinary. And 
it demonstrated their true colors in the sense that what other 
government would dispatch a deputy foreign minister to Norway 
to try to intimidate the Norwegian Government and a 
nongovernmental organization into not doing this? You know, who 
would prevent so many people from going? Who would prevent the 
lawyer's wife from going? Who would have locked this guy up? 
You know, I think it really sort of laid bare the way the 
government----
    Mr. Connolly. Of course, we had people in this country 
making fun of the fact that the President of the United States 
was the recipient of the Nobel Peace Prize, but that is a 
different issue we will talk about some other time.
    Go ahead.
    Ms. Richardson. No. Just one or two other very quick 
points. I think part of what is being said here is that part of 
what our community often asks for is simply that human rights 
issues get the same kind and amount of attention as trade 
issues or security issues and that the U.S. be consistent in 
its discussion of human rights issues with China, as it is 
elsewhere.
    To me, it is astonishing that, for example, we are heading 
into a leadership transition in China. There is no discussion 
about whether there should be competitive elections. That is 
just off the table.
    You know, the new Tibetan prime minister in exile, it is 
true that the man may have only gotten 40,000 votes, but that 
is 40,000 more votes than Hu Jintao ever got. And, you know, 
the U.S. does not step forward to recognize these attempts at 
democratic rule.
    You know, this is not a guy who has received an appropriate 
level of high-level attention. This is the kind of consistency 
in attention that we are asking for.
    Mr. Connolly. Thank you very much. Thank you, Madam 
Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Manzullo, the chairman of the Subcommittee on Asia and 
the Pacific, is recognized.
    Mr. Manzullo. Thank you, Madam Chair, for calling this 
important hearing.
    The Congressional-Executive Commission on China, on which I 
have had the honor of serving as a commissioner for several 
years, is charged with the singular mission to improve and 
monitor human rights and development of rule of law in China. 
The Commission's annual report is an important tool for human 
rights advocates around the world. It shows that there are over 
5,600 people in prison in China for violating basic concepts of 
human rights. China's progress on the rule of law development 
is equally lacking.
    As chairman of the Subcommittee on Asia and the Pacific and 
as founder of the Manufacturing Caucus, time after time after 
time, manufacturers, many of which are in my district, come to 
my office showing the latest rip-off in intellectual property, 
sham court trials, et cetera.
    We are always asking the administration to do more to urge 
China to improve its human rights. I will be holding a hearing 
this month on the administration's efforts to give China $4 
million of taxpayers' funding to help promote the use of clean 
energy technology in China. Some say American aid is as high as 
$300 million to China. Our subcommittee will be exploring that. 
This is the same time that our U.S. Trade Representative is 
fighting the case at the WTO against illegal Chinese Government 
subsidies in the clean energy sector.
    I am also very much appalled over the lack of basic freedom 
of worship in China. The Chinese Government itself is setting 
up a sham Catholic Church, not allowing the real Catholic 
Church the right to be governed by the Holy See; that is, the 
Pope, and also the uprooting of Protestant churches, 
dismantling of the home churches, et cetera.
    Pastor Fu, you mentioned in your testimony under 
conclusions and recommendations that the U.S. Commission on 
International Religious Freedom, which is a different 
commission than the Congressional-Executive Commission, has 
many excellent policy recommendations. I was looking at the 
recommendations of the Commission on International Freedom. One 
is the right of Catholics to recognize the authority of the 
Holy See in matters related to the practice of their faith, 
including the making of bishop appointments, the right of 
Protestants to worship free from state controls over doctrine, 
and to worship in unregistered house churches free from 
harassment, detention, and other abuses. I don't even have time 
to mention what is going on with the Buddhists, Muslims, and 
other people in other faith communities.
    Pastor Fu, how do you see the United States Government 
trying to implement at least these two recommendations of the 
U.S. Commission on International Freedom?
    Mr. Fu. I think the U.S. Government, especially the 
administration and Congress, should have, one, the China expert 
in the use of the Commission, Dr. Scott Flipse, described it as 
a Facebook policy, like transparent, consistent, coherent 
policy, on this issue, not this administration have under-the-
table thing. That administration at one time, they have some 
talk about a little bit and the other administration maybe just 
using the human rights dialogue or doing something.
    I think this should be consistent policy and transparent to 
stand very clearly and state very clearly this is what the 
United States of America stands for. And every congressman or 
senator, every administration official or, you know, even the 
state officials when they visit China, they should talk a lot 
and clearly make this as a priority.
    Mr. Manzullo. Well, Pastor Fu, I chaired the U.S.-China 
Interparliamentary Exchange for several years. We brought up 
these topics at the talks, and nothing would come of it. How 
much more forceful can this country be?
    Mr. Fu. I do have specific recommendations, such as I think 
the U.S. Embassy and consulates in different cities should 
invite those, the internet activist leaders or democracy 
activists, or even active civil society builders or historic 
leaders, to have tea or, you know, the Chinese security forces 
always force them to have tea. But I think the U.S. Embassy 
officials and designated personnel should invite them to go in 
the Embassy parameter and regularly and publicly announce and 
even business leaders to let them mingle together to talk to 
each other. I think that will send a very strong signal.
    And another thing, when there is a rest for dissidence, 
like Mr. Teng Biao, his wife is here, Ms. Fung Xiao. Like that, 
if there is a case like that, I think the Embassy officials 
should make a formal request to attend a court hearing. And you 
prevent it from going, but I think the fact when the Nobel 
Peace Prize winner Liu Xiaobo's trial was there, I think the 
European Union, the human rights officer, the U.S. Government 
officials were also--just in front of the Embassy, in front of 
the courtroom I think itself would send a strong signal of 
solidarity.
    Mr. Manzullo. Thank you, Pastor Fu.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Manzullo, for 
those questions.
    I am pleased to yield 5 minutes to Mr. Rivera, my Florida 
colleague, who, similar to my district, represents so many 
constituents who understand what living in a Communist regime 
is like. Mr. Rivera?
    Mr. Rivera. Thank you so much, Madam Chair. Thank you for 
having this important hearing.
    I know we like to refer often to the Chinese leadership as 
Chinese officials or Chinese leaders. I am going to refer to 
them what I think is more appropriate and justified in light of 
what happened in Tiananmen Square, in light of what has 
happened historically in Tibet, in light of what has happened 
with the one-child policy as really the butchers of Beijing.
    And I would refer to a couple of incidents. For example, 
when Secretary of State Hillary Clinton in her inaugural trip 
to Asia, when she met with some of the butchers of Beijing and 
she stated, ``It might be better to agree to disagree on human 
rights'' as a perfect example of what you spoke of in terms of 
appeasement to tyrants and why that type of appeasement doesn't 
work.
    It seems that perhaps with this administration, it has been 
more important to worry about our debt obligations to the 
butchers of Beijing than speak out against continued widespread 
human rights abuses.
    I know at a private dinner in January, I doubt very much 
whether President Obama when he met with the chief butcher of 
Beijing, Hu Jintao, whether he raised any of these important 
issues or Vice President Biden in his August trip to China, 
where he met with several of the butchers of Beijing focused 
more on the U.S. debt problem than he did on human rights 
issues.
    I think what we need to do is make sure and put the focus 
where it should be, on many issues that you have raised. And, 
in particular, I would like to ask a question regarding some of 
the activities of the butchers of Beijing with respect to Tibet 
and to Mr. Tsering specifically. There has been unrest, which 
has increased since 2008 in Tibetan ethnic areas under 
Beijing's administration, which have taken a new tragic turn in 
the past year with the practice of self-immolation.
    Last week a monk reportedly became the tenth person this 
year to set himself on fire in protest of the Chinese 
occupation. Nine other Tibetans in their late teens and 20s, 
including 5 monks, 3 former monks and a nun, have self-
immolated since March, with 5 or more of them dying from their 
injuries.
    The Miami Herald reported on November 1st that ``The 
response so far by the Chinese Communist Party, the butchers of 
Beijing, has been to knuckle down even more.'' Towns in the 
area are reportedly full of police. Internet access is shut off 
in many areas.
    Those suspected of sympathizing closely with activist monks 
are said to have disappeared. These protests seem directly 
connected to the suppression taking place at nearby Kirti 
Monastery, where 300 monks were taken away earlier this year 
for reeducation and disappeared. Is this the case? And what do 
you know about this?
    Mr. Tsering. Congressman, that certainly is the case. And I 
have to go back. We learned that today yet another Tibetan had 
committed self-immolations. And she died as a result.
    I think there is no doubt that all of these are taking 
place because of the repressive policies of the Chinese 
Government in all Tibetan areas. And it is particularly so that 
in recent years, the Chinese policies have been restricting or 
even further limiting the small freedom that Tibetan people had 
to express themselves, their identity, their religion, their 
culture.
    And initially in the past, maybe before 10 years ago, some 
areas, like the areas where Kirti Monastery or in other areas, 
had relatively more flexible policy than the Tibetan Autonomous 
Region, which the Chinese call Tibet. But now the Chinese 
Government has sort of blanketly imposed restrictions all over 
Tibetan areas, even in nonpolitical matters, so much so that 
they affect the very life of the Tibetan people. And when 
people are forced to choose means like self-immolation, it 
shows that it is a desperate situation.
    Mr. Rivera. Well, to continue that, with respect to 
relocation, there are indications that the protests broke out 
as a result of Chinese policy decisions designed to displace 
ethnic Tibetans in the area with Han Chinese settlers. Is this 
also an issue?
    Mr. Tsering. I cannot say that we have evidence to say this 
is the policy, but what is happening in Tibetan areas today is 
that more and more non-Tibetans, particularly the Han Chinese, 
are coming in, which in a way marginalizes the Tibetan society. 
And since the very identity of the Tibetan people is linked 
with our culture, our religion, when these freedoms are being 
curtailed on the one hand, and on the other hand, there are 
other players, so to say, in the society in which they live, it 
creates conflict with the situation. And when the government 
doesn't pay attention to it, it results in such consequences.
    Mr. Rivera. Thank you very much, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so very much for excellent 
panelists. Thank you for your powerful statements, for your 
policy recommendations. And I thank the audience also for 
staying with us and members of the press as well and members of 
our committee. With that, the committee is adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
             <ellipse><ellipse>stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  <F-dash>\<Register><pound>s<ellipse>
          \<box><star>t<careof><Rx><box><Rx><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
                      Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <F-dash>\<func.-of>s<box><natural><careof><Rx><bullet><ellipse>
                 <ellipse><F-dash><func.-of><Register>\

  Material submitted for the record by Mr. Bhuchung K. Tsering, vice 
    president for special programs, International Campaign for Tibet

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                <F-dash>

[Note: Material submitted for the record by Ms. Chai Ling, founder, All 
Girls Allowed, is not reprinted here but is available in committee 
records.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
